TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Enhancements to Transition Management
                 Guidance Will Enable Efficient and Effective
                   Modernization Project Implementation



                                             April 2006

                              Reference Number: 2006-20-054




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  April 28, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Enhancements to Transition Management
                               Guidance Will Enable Efficient and Effective Modernization Project
                               Implementation (Audit # 200520020)

 This report presents the results of our review of the Internal Revenue Service (IRS)
 Modernization and Information Technology Services organization’s Transition Management
 activities.1 The overall objective of this review was to determine whether Transition
 Management guidance and direction are adequate to ensure modernized systems are transitioned
 smoothly from the contractor to the IRS support organization. This review was part of our Fiscal
 Year 2005 audit plan for reviews of the IRS’ Business Systems Modernization efforts.

 Synopsis
 Transition Management activities prepare receiving organizations to use, operate, and maintain
 modernized systems. IRS business operating divisions and functional organizations must be
 prepared to use the new capabilities. Additionally, the Information Technology Systems
 organization must be prepared to accept changes to its production environment and to operate
 and maintain new systems at the contractually established time.




 1
  Transition Management is the management of activities associated with the smooth transfer of modernized
 business capabilities, including business processes and systems, from the developer to the receiving organization.
                   Enhancements to Transition Management Guidance Will Enable
                    Efficient and Effective Modernization Project Implementation



In August 2002, we reported 2 the Enterprise Life Cycle3 guidance on Transition Management
activities was not clearly organized and did not address all activities recommended by the
Capability Maturity Model.4 Our reviews of current Transition Management guidance and
activities found these areas are now adequately addressed with comprehensive guidance and
tools developed by the Transition Management Office. The Transition Management Office is
integral in helping project teams, receiving organizations, and support organizations focus on
readiness in the areas of business process, staffing, training, communication, hardware, software,
and budget.
The Transition Management Office guidance and tools were successfully delivered through
the Transition Management Guide, which describes the process the IRS uses to prepare its
receiving organizations for system transitions. The Transition Management Office also
developed and implemented the Transition Management Repository, which is designed to store
transition-related information for each project.
The Transition Management Office can further improve                           The Transition Management
transition efforts by ensuring project gap closure activities                     Office has developed
                                                                              comprehensive guidance and
adhere to the latest Transition Management guidance. It can                  tools that prepare IRS support
also refine its performance measures to include assessments                     organizations to receive
of the interim status of the Transition Management process                       Modernization projects.
and its resultant products.
We reviewed the Modernized e-File5 project and the Integrated Financial System6 project
transition activities. The Modernized e-File project Release 3.2 followed existing guidance to
position the project for a successful transition to the support organization. However, the
Integrated Financial System project did not follow Transition Management guidance requiring
validation and control of the readiness gaps to help ensure Transition Management Plan
completion.
The Transition Management Office issued revised guidance in October 2005 to improve controls
over readiness gaps in executing the Transition Management Plan. This new guidance included


2
  Management Advisory Report: Progress Has Been Made in Developing Transition to Support Guidance for
Modernization Projects (Reference Number 2002-20-146, dated August 2002).
3
  The Enterprise Life Cycle establishes a set of repeatable processes and a system of reviews, checkpoints, and
milestones that enable delivery of promised business results. See Appendix IV for an overview of the components
of the Enterprise Life Cycle.
4
  The Software Engineering Institute’s Capability Maturity Model is a widely recognized industry standard for
efficiently and effectively developing computer projects and systems.
5
  The Modernized e-File project’s goal is to replace the current technology for filing IRS tax return forms with
modernized, Internet-based electronic filing applications.
6
  The Integrated Financial System project includes the accounts payable, accounts receivable, general ledger, budget
execution, cost management, and financial reporting activities.
                                                                                                                   2
                Enhancements to Transition Management Guidance Will Enable
                 Efficient and Effective Modernization Project Implementation



a gap closure and tracking template, which all project teams should use. When followed, this
template should reduce the gap closure and control weaknesses we identified.
In May 2004, the Business Systems Modernization Office prepared a root cause analysis for
Transition Management activities. One of the concerns was “Measures of transition readiness
are neither identified nor used.” On December 19, 2005, the Transition Management Office
finalized the Transition Management Performance Measurement Process, which provides
stakeholder assessments of the Transition Management Office and Transition Management tools.
Although the Transition Management Performance Measurement Process appears to be a
successful effort to measure the effectiveness of the Transition Management Office and its tools,
the Transition Management Office can enhance its performance measurement process by
assessing the interim status of the Transition Management process and its resultant products.

Recommendation
The Chief Information Officer should direct the Transition Management Office to enhance its
performance measures through use of the Capability Maturity Model guidance. Examples of
performance measurements considering the Capability Maturity Model guidance could include
Transition Management hours expended on a project, number of workshops held, percentage of
Transition Management Plan completion, percentage of Transition Management Repository item
completion, and percentage of Transition Management Plan gaps closed.

Response
IRS management agreed with our recommendation. To implement the corrective action, the
Transition Management Office has augmented its Transition Management Performance
Measurement Process to include measures reflective of those suggested in the Capability
Maturity Model Integration. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program),
at (202) 622-8510.




                                                                                                3
                      Enhancements to Transition Management Guidance Will Enable
                       Efficient and Effective Modernization Project Implementation




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Transition Management Program Has Progressed Significantly
          Since Our 2002 Audit ...................................................................................Page 3
          Project Teams Did Not Always Follow Transition Management
          Guidance When Implementing Their Transition Management Plans...........Page 5
          Transition Management Performance Measures Need Further
          Development .................................................................................................Page 6
                    Recommendation 1:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 16
                   Enhancements to Transition Management Guidance Will Enable
                    Efficient and Effective Modernization Project Implementation




                                            Background

Transition Management is defined as the management of activities associated with the smooth
transfer of modernized business capabilities, including business processes and systems, from the
developer to the receiving organization. Transition
Management activities prepare receiving organizations to       Transition Management focuses
use, operate, and maintain modernized systems. This                  on preparing receiving
includes helping the receiving organizations understand            organizations for both the
the new system and its implications on the receiving             organizational processes and
organizations’ work and helping them address those              the technology that will exist in
                                                                 the modernized environment.
implications. Internal Revenue Service (IRS) business
operating divisions and functional organizations must be
prepared to use the new capabilities. Additionally, the Information Technology Systems
organization must be prepared to accept changes to its production environment and to operate
and maintain new systems at the contractually established time.
The IRS selected the Computer Sciences Corporation to serve as the Prime Systems Integration
Services Contractor (PRIME)1 for the Business Systems Modernization program. The IRS and
the PRIME contractor developed the Enterprise Life Cycle (ELC) to provide guidance for
designing, developing, and supporting Business Systems Modernization projects. Appendix IV
presents an overview of the components of the ELC.
The ELC establishes a set of repeatable processes and a system of reviews that promote delivery
of promised business results. The ELC processes are in line with the Software Engineering
Institute’s Capability Maturity Model.2 The Capability Maturity Model is a widely recognized
and adopted framework for improving software and system acquisition processes.
Transition Management is identified as one of the Capability Maturity Model key process areas
and is included as part of the ELC. The intent of Transition Management is to provide a
disciplined transition of the Business Systems Modernization projects being developed to the
IRS organization responsible for their long-term support and maintenance. All Business Systems
Modernization project teams need Transition Management activities to take place to successfully
transfer the projects to the IRS. The goal of Transition Management activities is to ensure the

1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The Capability Maturity Model was developed by the Software Engineering Institute and is a widely recognized
industry standard for efficiently and effectively developing computer projects and systems. Both the IRS and the
Computer Sciences Corporation intend to use the Capability Maturity Model as their standard for developing
Business Systems Modernization projects.
                                                                                                           Page 1
                    Enhancements to Transition Management Guidance Will Enable
                     Efficient and Effective Modernization Project Implementation



support organizations are fully prepared to accept responsibility for supporting and maintaining
the projects and related products.
This audit is a followup to our August 2002 report entitled Management Advisory Report:
Progress Has Been Made in Developing Transition to Support Guidance for Modernization
Projects.3 This audit was performed at the Business Systems Modernization Office facilities in
New Carrollton, Maryland, during the period September 2005 through January 2006. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
    Reference Number 2002-20-146, dated August 2002.
                                                                                           Page 2
                      Enhancements to Transition Management Guidance Will Enable
                       Efficient and Effective Modernization Project Implementation




                                          Results of Review

The Transition Management Program Has Progressed Significantly
Since Our 2002 Audit
In August 2002, we reported the ELC guidance on Transition Management activities was not
clearly organized and did not address all activities recommended by the Capability Maturity
Model. Specifically, Transition Management guidance did not sufficiently address the following
two areas:
       •   Responsibility for the software products is transferred only after the software support
           organization demonstrates its capability and capacity to modify and support the software
           products.
       •   The project team conducts activities to ensure support of the software products is
           maintained and is effective during the transition from the contractor to the software
           support organization.
We also reported project team implementation weaknesses included:
       •   Project teams did not develop Transition Management Plans early in the project life cycle
           of the four modernization projects we reviewed.
       •   Project teams did not timely include Transition Management Plans and activities in task
           orders.4
Our reviews of current Transition Management guidance                                 The Transition Management
and activities found these areas are now adequately                                      Office has developed
addressed. The Transition Management Office is integral in                           comprehensive guidance and
                                                                                    tools that prepare IRS support
helping project teams, receiving organizations, and support                            organizations to receive
organizations focus on readiness in the areas of business                               Modernization projects.
process, staffing, training, communication, hardware,
software, and budget.

The Transition Management Office has successfully delivered the Transition
Management Guide
The Transition Management Guide describes the process the IRS uses to prepare its receiving
organizations for system transitions. It includes a thorough template for preparing project

4
    A task order is an order for services placed against an established contract.
                                                                                                              Page 3
                      Enhancements to Transition Management Guidance Will Enable
                       Efficient and Effective Modernization Project Implementation



Transition Management Plans. It also contains templates for use in assessing and closing
receiving organization readiness gaps.
The Transition Management Guide provides direction for three Transition Management entities:
       •   Projects – Direction to identify, document, and help implement transition requirements
           that will ensure organization readiness to receive the modernized system.
       •   IRS business operating divisions, functional organizations, and Modernization and
           Information Technology Services (MITS) groups – Direction to assess their readiness to
           accept new capabilities and to plan and perform transition-related activities.
       •   MITS Business Integration Transition Management Office team members – Direction to
           assist business operating divisions, functional organizations and MITS groups with
           achieving organization readiness to receive modernized systems.

The Transition Management Office developed and implemented the Transition
Management Repository
The Transition Management Repository, which resides on the IRS intranet, is designed to store
transition-related information for each project. The Transition Management Repository includes
both a data warehouse and a document template that itemize the required format and contents of
project transition documentation.
Information in the Repository is used to generate a project’s official Transition Management
Plan. The Repository can generate reports that provide an integrated view of transition impacts
across projects, for instance by release5 or by IRS receiving organization. It is also used to
access the Gap Closure Action Log template.
The Transition Management Office identified the need to ensure Transition Management
activities continue to improve the efficiency and effectiveness of transitioning projects from the
developing to the supporting organization. The Transition Management Office can further
improve transition efforts by ensuring:
       •   Project gap closure activities adhere to the latest Transition Management guidance.
       •   Transition Management performance measures are refined to include measurements of
           the interim status of the Transition Management process and its resultant products.




5
    A release is a specific edition of software.
                                                                                                 Page 4
                   Enhancements to Transition Management Guidance Will Enable
                    Efficient and Effective Modernization Project Implementation



Project Teams Did Not Always Follow Transition Management
Guidance When Implementing Their Transition Management Plans
We reviewed the Modernized e-File (MeF)6 project and the Integrated Financial System (IFS)7
project transition activities. The MeF project Release 3.2 efforts followed existing guidance to
position the project for a successful transition to the support organization. However, the IFS
project did not follow Transition Management guidance in effect at the time of its transition
efforts. The IFS project did not follow guidance that required it to validate and control the
readiness gaps to help ensure completion of the Transition Management Plan.
We reviewed the April 29, 2005, IFS Milestone 5 Transition Management Plan. Based on
documentation in this Plan and related implementation activities, we could not determine
whether the IRS receiving organizations were resolving all the transition readiness gaps listed in
the Transition Management Plan. Further, the IFS project team could not provide documentation
about the work in process or completed to close the Transition Management Plan readiness gaps.
Without proper control over activities to close readiness gaps, neither the project team nor the
Transition Management Office can be sure all gaps identified in the Transition Management Plan
have been closed prior to transition of a project to the support organization.
The Transition Management Office issued revised guidance
in October 2005 to improve controls over readiness gaps in        The MITS organization and
executing the Transition Management Plan. This new                the Transition Management
guidance included a gap closure and tracking template,            Office recognized the need
which all project teams should use. When followed, this            to improve control of the
                                                                    Transition Management
template should reduce the gap closure and control                         activities.
weaknesses we identified. In addition, the MITS
organization convened the System Acceptance and
Transition to Operations and Maintenance workgroup to define root causes hindering system
acceptance and successful transition. This workgroup is in the process of addressing these root
causes.




6
  The MeF project’s goal is to replace the current technology for filing IRS tax return forms with modernized,
Internet-based electronic filing applications.
7
  The IFS project includes the accounts payable, accounts receivable, general ledger, budget execution, cost
management, and financial reporting activities.
                                                                                                             Page 5
                Enhancements to Transition Management Guidance Will Enable
                 Efficient and Effective Modernization Project Implementation



Transition Management Performance Measures Need Further
Development
In May 2004, the Business Systems Modernization Office prepared a root cause analysis report
for Transition Management activities. The report listed the top 10 themes and concerns of
management. One of those concerns was “Measures of transition readiness are neither identified
nor used.”
On December 19, 2005, the Transition Management Office finalized the Transition Management
Performance Measurement Process. This Process provides historical stakeholder assessments of
the Transition Management Office and Transition Management tools, such as the Transition
Management Guide and Transition Management Repository. The measures are an accumulation
of stakeholder responses about the three phases of the Transition Management process:
   •   Organizational alignment.
   •   Gap identification.
   •   Gap closure.
The Transition Management Performance Measurement Process appears to be a successful effort
to measure the effectiveness of the Transition Management Office and its tools from the
perspective of the receiving organizations. It should result in improved Transition Management
Office/stakeholder relations and Transition Management tools. However, the Transition
Management Office can enhance its performance measurement process by measuring the interim
status of the Transition Management process and its resultant products.
The Capability Maturity Model requires measurements to determine the status of the transition
activities and resultant products. The Capability Maturity Model provides the following
examples of measurements to track status:
   •   Effort expended.
   •   Funds expended.
   •   Progress towards completion of transition to support.
   •   Completion of milestones.
The Transition Management Performance Measurement Process does not provide a means to
measure the status of Transition Management activities. Without an avenue for measuring the
status and effectiveness of Transition Management activities, the Modernization program may be
unable to efficiently and effectively manage the transition of its projects from the development to
support organizations.



                                                                                            Page 6
               Enhancements to Transition Management Guidance Will Enable
                Efficient and Effective Modernization Project Implementation



Recommendation
Recommendation 1: The Chief Information Officer should direct the Transition Management
Office to enhance its performance measures through use of the Capability Maturity Model
guidance. Examples of Transition Management performance measurements considering the
Capability Maturity Model guidance could include Transition Management hours expended on a
project, number of workshops held, percentage of Transition Management Plan completion,
percentage of Transition Management Repository item completion, and percentage of Transition
Management Plan gaps closed.
       Management’s Response: The IRS agreed with this recommendation. As part of its
       Transition Management Guide, the Transition Management Office has augmented its
       Transition Management Performance Measurement Process to include measures
       reflective of those suggested in the Capability Maturity Model Integration. The
       Transition Management Performance Measurement Process now includes the following
       proposed measures:
          •   Percentage of projects with a detailed Transition Management work plan by
              Milestone 2 Exit.
          •   Percentage of projects using the Transition Management Repository.
          •   Percentage of projects that have an approved Transition Management Plan at
              Milestone 2-5 Exits.
          •   Percentage of readiness gaps closed or successfully reduced at Milestone 4 Exit.
          •   Percentage of readiness gaps closed or successfully reduced at Milestone 5 Exit.
       Data for the proposed measures will be collected through established Transition
       Management practices. Transition Management Office representatives will collect the
       data as part of the service they provide to Project Transition Management teams and
       through the monthly Transition Readiness Reporting process. This approach enables the
       Transition Management Office to collect the necessary data through its normal support of
       project Transition Management teams.




                                                                                         Page 7
                   Enhancements to Transition Management Guidance Will Enable
                    Efficient and Effective Modernization Project Implementation



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of our review was to determine whether Transition Management1 guidance
and direction are adequate to ensure modernized systems are transitioned smoothly from the
contractor to the Internal Revenue Service (IRS) support organization. To accomplish our
objective, we reviewed available documentation and interviewed Transition Management Office,
Business Systems Modernization Office, and Information Technology Services organization
managers and analysts, and Modernization Acquisition analysts from the Agency-Wide Shared
Services organization. This review was part of our Fiscal Year 2005 audit plan for reviews of
the IRS’ Business Systems Modernization efforts. Specifically, we:
I.       Determined the status and adequacy of Transition Management guidance in use and in
         development.
         A. Assessed current Transition Management guidance to determine whether it improved
            on weaknesses we previously identified in our report entitled Management Advisory
            Report: Progress Has Been Made in Developing Transition to Support Guidance for
            Modernization Projects.2
         B. Interviewed the Transition Management Office Senior Manager to determine the
            effective date for using current guidance and whether future guidance updates were in
            development to further direct transition activities.
         C. Interviewed the Business Systems Modernization Office Acquisition Project Manager
            and Information Technology Services organization Project Manager for the Integrated
            Financial System (IFS)3 and the Modernized e-File (MeF)4 projects to determine how
            the Transition Management guidance was being communicated, controlled, and
            implemented.
II.      Assessed the implementation of Transition Management guidance in modernization
         projects for the IFS and MeF projects.



1
  Transition Management is the management of activities associated with the smooth transfer of modernized
business capabilities, including business processes and systems, from the developer to the receiving organization.
2
  Reference Number 2002-20-146, dated August 2002.
3
  The IFS project includes the accounts payable, accounts receivable, general ledger, budget execution, cost
management, and financial reporting activities.
4
  The MeF project’s goal is to replace the current technology for filing IRS tax return forms with modernized,
Internet-based electronic filing applications.
                                                                                                             Page 8
                  Enhancements to Transition Management Guidance Will Enable
                   Efficient and Effective Modernization Project Implementation



        A. Determined whether modernization project task orders5 included adequate Transition
           Management Plans with necessary preparation and transitioning activities.
        B. Identified projects requiring operations and maintenance contracts due to a project
           change or Transition Management deliverables or activities not timely tasked or
           planned.
        C. Determined whether the IFS and MeF projects had adequate Transition Management
           Plans for the IRS support organizations to receive the applications transitioned from
           the developer.
III.    Determined the adequacy of Transition Management direction and project coordination
        and communication among the participating organizations such as the PRIME
        contractor,6 Business Systems Modernization Office, Information Technology Services
        organization, and Transition Management Office.
        A. Interviewed the Transition Management Office Senior Manager and reviewed
           Transition Management guidance to determine the status of the Transition
           Management Office organizational placement within the Modernization and
           Information Technology Services organization.
        B. Identified plans for Transition Management to provide guidance to Information
           Technology Services organization systems (in addition to Business Systems
           Modernization Office systems) after the initiation of the Enterprise Services
           organization.
        C. Determined the adequacy of Transition Management readiness reviews for the IFS
           and MeF projects.




5
  A task order is an order for services placed against an established contract.
6
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
                                                                                                        Page 9
               Enhancements to Transition Management Guidance Will Enable
                Efficient and Effective Modernization Project Implementation



                                                                              Appendix II


                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Glen J. Rhoades, Senior Auditor
Louis V. Zullo, Senior Auditor
Perrin T. Gleaton, Auditor




                                                                                     Page 10
              Enhancements to Transition Management Guidance Will Enable
               Efficient and Effective Modernization Project Implementation



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:B
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 11
                      Enhancements to Transition Management Guidance Will Enable
                       Efficient and Effective Modernization Project Implementation



                                                                                      Appendix IV

                            Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) is the Internal Revenue Service’s (IRS) standard approach to
business change and information systems initiatives. It is a collection of program and project
management best practices designed to manage business change in a successful and repeatable
manner. The ELC addresses large and small projects developed internally and by contractors.
The ELC includes such requirements as:
       •   Development of and conformance to an enterprise architecture.
       •   Improving business processes prior to automation.
       •   Use of prototyping and commercial software, where possible.
       •   Obtaining early benefit by implementing solutions in multiple releases.1
       •   Financial justification, budgeting, and reporting of project status.
In addition, the ELC improves the IRS’ ability to manage changes to the enterprise; estimate the
cost of changes; and engineer, develop, and maintain systems effectively. Figure 1 provides an
overview of the layers, paths, phases, and milestones (shown as “MS” in Figure 1) within the
ELC Framework.




1
    A release is a specific edition of software.
                                                                                           Page 12
                                        Enhancements to Transition Management Guidance Will Enable
                                         Efficient and Effective Modernization Project Implementation



                                                                      Figure 1: ELC Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the ELC Framework modified from the ELC Guide.

ELC Layers
The ELC is a framework for organizing and using IRS directives, processes, procedures,
templates, and standards to accomplish business change. It is organized as a set of
interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the ELC.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.


                                                                                                                                                                        Page 13
                   Enhancements to Transition Management Guidance Will Enable
                    Efficient and Effective Modernization Project Implementation



    •    The Methodology Layer details how to do the work and specifies a unique set of work
         products to be produced. Specific methodologies are not part of the ELC Framework.
    •    The Specialty Areas Layer provides additional guidance for areas of particular
         importance within the IRS. These areas include Enterprise Integration, Test, and
         Evaluation;2 Business Rules Harvesting3 and Management; Transition Management;4
         Enterprise Architecture; Capital Planning and Investment Control;5 Security and Privacy;
         Requirements Development and Management.

ELC Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
ELC specifies a standard for the work required to produce and operate business change solutions,
there are multiple ways to approach and accomplish the required work. Paths are like alternate
roads, each of which crosses different terrain, but all of which lead to the same destination. The
ELC provides five distinct paths or approaches to developing systems:
    •    The Large Custom Path is for large projects.
    •    The Small Custom Path is for small projects.
    •    The Commercial-Off-the-Shelf Path is a commercial, software-based approach.
    •    The Joint Application Development/Rapid Application Development Path is a highly
         accelerated, prototyping-based approach for very small, standalone solutions or solution
         components.
    •    The Iterative Custom Path is a hybrid approach that combines elements of the other
         approaches.

ELC Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS

2
  Enterprise Integration, Test, and Evaluation includes processes for integrating multiple components of a solution
and conducting various types and levels of testing on the solution.
3
  A business rule is a statement that defines or constrains some aspect of the business. Harvesting is a general term
used to broadly describe the entire set of activities involved in gathering, formalizing, analyzing, and validating
business rules for a particular scope.
4
  Transition Management helps ensure personnel and organizations are prepared to receive, use, operate, and
maintain the business processes and technology provided by business change solutions.
5
  The Capital Planning Investment and Control process manages a central portfolio of information technology
investments across the IRS.
                                                                                                             Page 14
                  Enhancements to Transition Management Guidance Will Enable
                   Efficient and Effective Modernization Project Implementation



executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.
                                 Figure 2: ELC Phases and Milestones
                                                      General Nature                       Concluding
              Phase                                       of Work                           Milestone
 Vision and Strategy/              High-level direction setting. This is the only phase
                                                                                               0
 Enterprise Architecture Phase     for enterprise planning projects.
 Project Initiation Phase          Startup of development projects.                            1
 Domain Architecture Phase         Specification of the operating concept, requirements,
                                                                                               2
                                   and structure of the solution.
 Preliminary Design Phase          Preliminary design of all solution components.              3
 Detailed Design Phase             Detailed design of solution components.                    4A
 System Development Phase          Coding, integration, testing, and certification of
                                                                                              4B
                                   solutions.
 System Deployment Phase           Expanding availability of the solution to all target
                                   users. This is usually the last phase for development       5
                                   projects.
 Operations and Maintenance        Ongoing management of operational systems.               System
 Phase                                                                                     Retirement
Source: The ELC Guide.




                                                                                                        Page 15
   Enhancements to Transition Management Guidance Will Enable
    Efficient and Effective Modernization Project Implementation



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 16
Enhancements to Transition Management Guidance Will Enable
 Efficient and Effective Modernization Project Implementation




                                                        Page 17
